      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General

                                                                         Washington, D.C. 20201




December 13, 2011

TO:           Marilyn Tavenner
              Acting Administrator
              Centers for Medicare & Medicaid Services


FROM:         /Gloria L. Jarmon/
              Deputy Inspector General for Audit Services


SUBJECT:      Review of Medicare Payments Exceeding Charges for Outpatient Services
              Processed by National Government Services, Inc., in Jurisdiction 6 – Illinois and
              Wisconsin for the Period January 1, 2006, Through June 30, 2009
              (A-05-10-00025)


Attached, for your information, is an advance copy of our final report on Medicare payments
exceeding charges for outpatient services processed by National Government Services, Inc.
(NGS), in Jurisdiction 6. We will issue this report to NGS within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or Sheri
L. Fulcher, Regional Inspector General for Audit Services, Region V, at (312) 353-1823 or
through email at Sheri.Fulcher@oig.hhs.gov. Please refer to report number A-05-10-00025.


Attachment
     DEPARTMENT OF HEALTH and HUMAN SERVICES                              Office of Inspector General

                                                                          Office of Audit Services, Region V
                                                                          233 North Michigan Avenue
December 15, 2011                                                         Suite 1360
                                                                          Chicago, IL 60601
Report Number: A-05-10-00025

Ms. Sandra Miller
President
National Government Services
8115 Knue Road
Indianapolis, IN 46250

Dear Ms. Miller:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicare Payments Exceeding Charges for
Outpatient Services Processed by National Government Services, Inc., in Jurisdiction 6 – Illinois
and Wisconsin for the Period January 1, 2006, Through June 30, 2009. We will forward a copy
of this report to the HHS action official noted on the following page for review and any action
deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to contact
Alexandria Hayden, Senior Auditor, at (312) 353-3033, or through email at
Alexandria.Hayden@oig.hhs.gov or David Markulin, Audit Manager, at (312) 353-1644 or
through email at David.Markulin@oig.hhs.gov. Please refer to report number A-05-10-00025 in
all correspondence.

                                             Sincerely,



                                             /Sheri L. Fulcher/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Sandra Miller


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL


  REVIEW OF MEDICARE PAYMENTS
     EXCEEDING CHARGES FOR
OUTPATIENT SERVICES PROCESSED BY
 NATIONAL GOVERNMENT SERVICES,
 INC., IN JURISDICTION 6 – ILLINOIS
      AND WISCONSIN FOR THE
 PERIOD JANUARY 1, 2006, THROUGH
            JUNE 30, 2009



                        Daniel R. Levinson
                         Inspector General

                          December 2011
                          A-05-10-00025
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS), which administers the program,
contracts with Medicare contractors to process and pay Medicare claims submitted for outpatient
services. The Medicare contractors use the Fiscal Intermediary Standard System and CMS’s
Common Working File (CWF) to process claims. The CWF can detect certain improper
payments during prepayment validation.

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains details regarding each provided service (called a line item in
this report). Providers should use the appropriate Healthcare Common Procedure Coding
System (HCPCS) codes and report units of service as the number of times that a service or
procedure was performed or, if the HCPCS code is associated with a drug, the number of units
administered. In addition, providers should charge Medicare and other payers, such as private
insurance companies, uniformly. However, Medicare uses an outpatient prospective payment
system to pay certain outpatient providers. In this method of reimbursement, the Medicare
payment is not based on the amount that the provider charges. Consequently, the billed charges
(the prices that a provider sets for its services) generally do not affect the current Medicare
prospective payment amounts. Billed charges generally exceed the amount that Medicare pays
the provider. Therefore, a Medicare payment that significantly exceeds the billed charges is
likely to be an overpayment.

During our audit period (January 1, 2006, through June 30, 2009), National Government
Services, Inc. (NGS), was the fiscal intermediary for Jurisdiction 6 in two States, Illinois and
Wisconsin. On January 7, 2009, CMS awarded Noridian Administrative Services, LLC, the
Medicare Administrative Contractor contract for Jurisdiction 6, which includes Illinois and
Wisconsin; however, protests were filed against the award. CMS is taking corrective action on
the award. In the meantime, NGS, acting as the legacy fiscal intermediary, continues to process
claims for providers in Illinois and Wisconsin. During our audit period, approximately
167.5 million line items for outpatient services were processed for Illinois and Wisconsin, of
which 1,547 line items had (1) a Medicare line payment amount that exceeded the line billed
charge amount by at least $1,000 and (2) 3 or more units of service. (A single Medicare claim
from a provider typically includes more than one line item. In this audit, we did not review
entire claims; rather, we reviewed specific line items within the claims that met these two
criteria. Because the terms “payments” and “charges” are generally applied to claims, we will
use “line payment amounts” and “line billed charges.”)

OBJECTIVE

Our objective was to determine whether certain Medicare payments in excess of charges that
NGS made to providers for outpatient services were correct.




                                                i
SUMMARY OF FINDINGS

Of the 1,547 selected line items for which NGS made Medicare payments to providers for
outpatient services during our audit period, 524 were correct. Providers refunded overpayments
on 96 line items totaling $1.7 million before our fieldwork. The remaining 927 line items were
incorrect. Of these 927 items, 901 included overpayments totaling $6,284,843, which the
providers had not refunded by the beginning of our audit. As of February 1, 2011, the amount of
overpayment for the 26 remaining items had not been determined because the items had not been
reprocessed and the correct line payment amounts identified.

Of the 927 incorrect line items:

   •    Providers reported incorrect units of service on 699 line items, resulting in identified
        overpayments totaling at least $5,119,064 (the amount of overpayment for 25 of the 699
        line items has not been determined).

   •    Providers used HCPCS codes that did not reflect the procedures performed on 113 line
        items, resulting in overpayments totaling $528,317.

   •    Providers reported a combination of incorrect units of service claimed and incorrect
        HCPCS codes on 64 line items, resulting in overpayments totaling $460,863.

   •    Providers billed for unallowable services on 41 line items, resulting in identified
        overpayments totaling $141,628.

   •    Providers did not provide the supporting documentation for 10 line items, resulting in
        overpayments totaling $34,971 (the amount of overpayment for 1 line item has not been
        determined).

The providers attributed the incorrect payments to clerical errors or to billing systems that could
not prevent or detect the incorrect billing of units of service and other types of billing errors.
NGS made these incorrect payments because neither the Fiscal Intermediary Standard System
nor the CWF had sufficient edits in place during our audit period to prevent or detect the
overpayments.

RECOMMENDATIONS

We recommend that NGS:

    •   recover $6,284,843 in identified overpayments,

    •   determine the amount of overpayment for the 26 incorrect line item payments and
        recover that amount,




                                                 ii
   •   implement system edits that identify line item payments that exceed billed charges by a
       prescribed amount, and

   •   use the results of this audit in its provider education activities.

NATIONAL GOVERNMENT SERVICES COMMENTS

In written comments on our draft report, NGS agreed with our first recommendation and stated
that it had reviewed all of the claims detailed in our audit and the required actions had been
completed. Regarding the second recommendation, NGS stated that once the claim adjustment
finalizes, it will initiate all 26 claim adjustments and begin the recovery process. Citing
limitations within CMS’s Part A processing system, NGS stated that our third recommendation
to implement system edits would “require additional clarification and discussion.” Finally,
regarding our fourth recommendation for provider education activities, NGS stated that it would
provide ongoing education through its Web site, notices to Illinois and Wisconsin providers, and
face-to-face sessions and webinars regarding outpatient claim errors.

NGS’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

We encourage NGS to implement system edits to the extent possible under its current contract
with CMS.




                                                  iii
                                                   TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION ...................................................................................................................... 1

      BACKGROUND .................................................................................................................. 1
        Medicare Contractors .................................................................................... 1
        Claims for Outpatient Services ....................................................................................... 1
        National Government Services, Inc. . . ........................................................................... 2

      OBJECTIVE, SCOPE, AND METHODOLOGY ................................................................ 2
        Objective ......................................................................................................................... 2
        Scope......................................................................................................... 2
        Methodology ................................................................................................................... 3

FINDINGS AND RECOMMENDATIONS ............................................................................. 3

      FEDERAL REQUIREMENTS .................................................................................. 4

      OVERPAYMENTS FOR SELECTED LINE ITEMS ......................................................... 5
        Incorrect Number of Units of Service ............................................................................. 5
        Incorrect Healthcare Common Procedure Coding System Codes .................................. 5
        Combination of Incorrect Number of Units of Service and
          Incorrect Healthcare Common Procedure Coding System Codes ............................... 5
        Services Not Allowable for Medicare Reimbursement .................................................. 5
        Unsupported Services ..................................................................................................... 6

      CAUSES OF INCORRECT MEDICARE PAYMENTS ..................................................... 6

      RECOMMENDATIONS ...................................................................................................... 6

      NATIONAL GOVERNMENT SERVICES, INC., COMMENTS ......................................7

      OFFICE OF INSPECTOR GENERAL RESPONSE ........................................................... 7

APPENDIX

      NATIONAL GOVERNMENT SERVICES, INC., COMMENTS




                                                                     iv
                                               INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.
Part B of the Medicare program helps cover medically necessary services such as doctors’
services, outpatient care, home health services, and other medical services. Part B also covers
some preventive services.

Medicare Contractors

CMS contracts with Medicare contractors to, among other things, process and pay Medicare
Part B claims submitted for outpatient services. 1 The Medicare contractors’ responsibilities
include determining reimbursement amounts, conducting reviews and audits, and safeguarding
against fraud and abuse. Federal guidance provides that Medicare contractors must maintain
adequate internal controls over automatic data processing systems to prevent increased program
costs and erroneous or delayed payments. To process providers’ outpatient claims, the Medicare
contractors use the Fiscal Intermediary Standard System and CMS’s Common Working File
(CWF). The CWF can detect certain improper payments during prepayment validation.

Claims for Outpatient Services

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains details regarding each provided service (called a line item in
this report). Providers should use the appropriate Healthcare Common Procedure Coding
System (HCPCS) codes and report units of service as the number of times that a service or
procedure was performed or, if the HCPCS code is associated with a drug, the number of units
administered. 2 In addition, providers should charge Medicare and other payers, such as private
insurance companies, uniformly. However, Medicare uses an outpatient prospective payment
system to pay certain outpatient providers. In this method of reimbursement, the Medicare
payment is not based on the amount that the provider charges. Consequently, the billed charges
(the prices that a provider sets for its services) generally do not affect the current Medicare
prospective payment amounts. Billed charges generally exceed the amount that Medicare pays
the provider. Therefore, a Medicare payment that significantly exceeds the billed charges is
likely to be an overpayment.


1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MAC) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. In this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or MAC, whichever is
applicable.
2
    HCPCS codes are used throughout the health care industry to standardize coding for medical procedures.



                                                          1
National Government Services, Inc.

During our audit period (January 1, 2006, through June 30, 2009), National Government
Services, Inc. (NGS), was the fiscal intermediary for two States within Jurisdiction 6, Illinois and
Wisconsin. On January 7, 2009, CMS announced that it had awarded Noridian Administrative
Services, LLC, the MAC contract for Jurisdiction 6, which includes Illinois, Minnesota, and
Wisconsin; however, protests were filed against the award. While CMS was taking corrective
action on the award, NGS, acting as the legacy fiscal intermediary, continued to process claims
for providers in Illinois and Wisconsin.3 NGS processed approximately 167.5 million line items
for outpatient services for Illinois and Wisconsin providers during our audit period.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether certain Medicare payments in excess of charges that
NGS made to providers for outpatient services were correct.

Scope

Of the approximately 167.5 million line items for outpatient services that NGS processed during
the period January 2006 through June 2009, we reviewed 1,547 line items that had (1) a
Medicare line payment amount that exceeded the line billed charge amount by at least $1,000
and (2) 3 or more units of service. 4

We limited our review of NGS’s internal controls to those that were applicable to the selected
payments because our objective did not require an understanding of all internal controls over the
submission and processing of claims. Our review allowed us to establish reasonable assurance
of the authenticity and accuracy of the data obtained from the National Claims History file, but
we did not assess the completeness of the file.

Our fieldwork included contacting NGS in Louisville, Kentucky, and the 142 5 providers in
Illinois and Wisconsin that received the selected Medicare payments.




3
 CMS reopened the competition for Jurisdiction 6 during the summer of 2010. In September 2011, CMS
announced that it had awarded NGS the MAC contract for Jurisdiction 6.
4
  A single Medicare claim from a provider typically includes more than one line item. In this audit, we did not
review entire claims; rather, we reviewed specific line items within the claims that met these two criteria. Because
the terms “payments” and “charges” are generally applied to claims, we will use “line payment amounts” and “line
billed charges.”
5
 Five providers refunded overpayments on five selected line items before our fieldwork; therefore, we did not
contact those providers.


                                                          2
Methodology

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   used CMS’s National Claims History file to identify outpatient line items in which
        (1) Medicare line payment amounts exceeded the line billed charge amounts by at least
        $1,000 and (2) the line item had 3 or more units of service; 6

    •   identified 1,547 line items totaling approximately $11.6 million that Medicare paid to 142
        providers;

    •   contacted 137 providers that received Medicare payments for 1,547 line items 7 to
        determine whether the information conveyed in the selected line items was correct and, if
        not, why the information was incorrect;

    •   reviewed documentation that the providers furnished to verify whether each selected line
        item was billed correctly;

    •   coordinated the calculation of overpayments with NGS; and

    •   discussed the results of our review with NGS on February 1, 2011.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                              FINDINGS AND RECOMMENDATIONS

Of the 1,547 selected line items for which NGS made Medicare payments to providers for
outpatient services during our audit period, 524 were correct. Providers refunded overpayments
on 96 line items totaling approximately $1.7 million before our fieldwork. The remaining 927
line items were incorrect. Of the 927 items, 901 included overpayments totaling at least
$6,284,843, which the providers had not refunded by the beginning of our audit. As of



6
 For this audit, we reviewed those line items that met the stated parameters. We applied these parameters to
unadjusted line items. In some cases, subsequent payment adjustments reduced the difference between payments
and charges to less than $1,000.
7
  We did not review 96 of the 1,547 selected line items because providers refunded overpayments before our
fieldwork. The 96 includes the 5 line items referred to in footnote 5.



                                                        3
February 1, 2011, the amount of overpayment for the 26 remaining items had not been
determined because the items had not been reprocessed and the correct line payment amounts
identified.

Of the 927 incorrect line items:

    •   Providers reported incorrect units of service on 699 line items, resulting in identified
        overpayments totaling $5,119,064 (the amount of overpayment for 25 of the 699 line
        items has not been determined).

    •   Providers used HCPCS codes that did not reflect the procedures performed on 113 line
        items, resulting in overpayments totaling $528,317.

    •   Providers reported a combination of incorrect units of service claimed and incorrect
        HCPCS codes on 64 line items, resulting in overpayments totaling $460,863.

    •   Providers billed for unallowable services on 41 line items, resulting in identified
        overpayments totaling $141,628.

    •   Providers did not provide the supporting documentation for 10 line items, resulting in
        overpayments totaling $34,971 (the amount of overpayment for 1 line item has not been
        determined).

The providers attributed the incorrect payments to clerical errors or to billing systems that could
not prevent or detect the incorrect billing of units of service and other types of billing errors.
NGS made these incorrect payments because neither the Fiscal Intermediary Standard System
nor the CWF had sufficient edits in place during our audit period to prevent or detect the
overpayments.

FEDERAL REQUIREMENTS

Section 1833(e) of the Social Security Act states: “No payment shall be made to any provider of
services … unless there has been furnished such information as may be necessary in order to
determine the amounts due such provider … for the period with respect to which the amounts are
being paid ….”

CMS’s Medicare Claims Processing Manual, Pub. No. 100-04 (the Manual), chapter 23,
section 20.3, states: “providers must use HCPCS codes … for most outpatient services.”
Chapter 25, section 75.5, of the Manual states: “when HCPCS codes are required for services,
the units are equal to the number of times the procedure/service being reported was performed.” 8
If the provider is billing for a drug, according to chapter 17, section 70, of the Manual, “[w]here
HCPCS is required, units are entered in multiples of the units shown in the HCPCS narrative


8
 Before CMS Transmittal 1254, Change Request 5593, dated May 25, 2007, and effective June 11, 2007, this
provision was located at chapter 25, section 60.5, of the Manual.



                                                      4
description. For example, if the description for the code is 50 mg, and 200 mg are provided,
units are shown as 4 ….”

Chapter 1, section 80.3.2.2, of the Manual states: “In order to be processed correctly and
promptly, a bill must be completed accurately.”

OVERPAYMENTS FOR SELECTED LINE ITEMS

Incorrect Number of Units of Service

Providers reported incorrect units of service on 699 line items, resulting in overpayments totaling
at least $5,119,064. The amount of overpayment for 25 line items has not been determined
because NGS has not reprocessed the line items to determine the correct line payment amounts.
The following example illustrates the incorrect units of service. One provider billed Medicare
for incorrect service units on 175 line items. Rather than billing for the correct service units
chargeable for the HCPCS codes associated with these line items, the provider billed between
1,500 and 75,000 service units. These errors occurred because the provider’s internal pharmacy
module used an incorrect multiplier. As a result of these errors, NGS paid the provider
$1,941,249 when it should have paid $10,229, an overpayment of $1,931,020.

Incorrect Healthcare Common Procedure Coding System Codes

Providers used HCPCS codes that did not reflect the procedures performed on 113 line items,
resulting in overpayments totaling $528,317. For example, because of human error, a provider
billed Medicare for two line items with an incorrect HCPCS code. In each of these cases,
brachytherapy seeds 9 were charged using procedure code 79200 instead of the appropriate code
of C1718. As a result, NGS paid the provider $37,101 when it should have paid $6,122, an
overpayment of $30,979.

Combination of Incorrect Number of Units of Service and
Incorrect Healthcare Common Procedure Coding System Codes

Providers reported a combination of incorrect units of service claimed and incorrect HCPCS
codes on 64 line items, resulting in overpayments totaling $460,863. For example, one provider
billed Medicare for three units of surgical procedure code 26765 rather than one unit of surgical
procedure code 26755. The overpayment occurred because of a clerical error on both the
number of units and the surgical procedure code. As a result, NGS paid the provider $2,660
when it should have paid $93, an overpayment of $2,567.

Services Not Allowable for Medicare Reimbursement

Providers incorrectly billed Medicare for 41 line items for which the services provided were not
allowable for Medicare reimbursement, resulting in overpayments totaling at least $141,628. For
example, 1 provider billed Medicare for 14 line items that were unrelated to outpatient services.

9
 Brachytherapy seeds are radioactive material used to treat several types of cancer. The seeds are placed into the
area of the tumor and emit radiation until they are no longer active.


                                                         5
Specifically, the provider incorrectly billed Medicare outpatient services for dental procedures
that are not covered by Medicare. For one such procedure, the provider billed for the surgical
removal of an erupted tooth, which is not a covered procedure according to the Medicare Benefit
Policy Manual (Pub. No. 100-02, chapter 15, section 150). As a result, NGS paid the provider
$58,338 when it should have paid $0, an overpayment of $58,338.

Unsupported Services

Five providers billed Medicare for 10 line items for which they did not provide supporting
documentation, resulting in overpayments totaling $42,260. Four providers agreed to cancel the
claims associated with these line items and issue a total refund of $34,971. The remaining
provider did not respond to our request regarding a line item totaling $7,289. The amount of
overpayment for the line item has not been determined because NGS has not reprocessed the line
item to determine the correct line payment amount.

CAUSES OF INCORRECT MEDICARE PAYMENTS

The providers attributed the incorrect payments to clerical errors or to billing systems that could
not prevent or detect the incorrect billing of units of service and other types of billing errors.
NGS made these incorrect payments because neither the Fiscal Intermediary Standard System
nor the CWF had sufficient edits in place to prevent or detect the overpayments. In effect, CMS
relied on providers to notify the Medicare contractors of incorrect payments and on beneficiaries
to review their Medicare Summary Notice and disclose any overpayments. 10

On January 3, 2006, CMS required Medicare contractors to implement a Fiscal Intermediary
Standard System edit to suspend potentially incorrect Medicare payments for prepayment
review. As implemented, this edit suspends payments exceeding established thresholds and
requires Medicare contractors to determine the legitimacy of the claims. However, this edit did
not detect the errors that we found because the edit considers only the amount of the payment,
suspends only those payments that exceed the threshold, and does not flag payments that exceed
charges.

RECOMMENDATIONS

We recommend that NGS:

     •   recover $6,284,843 in identified overpayments,

     •   determine the amount of overpayment for the 26 incorrect line item payments and
         recover that amount,

     •   implement system edits that identify line item payments that exceed billed charges by a
         prescribed amount, and

10
  The Medicare contractor sends a Medicare Summary Notice—an explanation of benefits—to the beneficiary after
the provider files a claim for services. The notice explains the services billed, the approved amount, the Medicare
payment, and the amount due from the beneficiary.


                                                         6
   •   use the results of this audit in its provider education activities.

NATIONAL GOVERNMENT SERVICES COMMENTS

In written comments on our draft report, NGS agreed with our first recommendation and stated
that it had reviewed all of the claims detailed in our audit and the required actions had been
completed. Regarding the second recommendation, NGS stated that once the claim adjustment
finalizes, it will initiate all 26 claim adjustments and begin the recovery process. Citing
limitations within CMS’s Part A processing system, NGS stated that our third recommendation
to implement system edits would “require additional clarification and discussion.” Finally,
regarding our fourth recommendation for provider education activities, NGS stated that it would
provide ongoing education through its Web site, notices to Illinois and Wisconsin providers, and
face-to-face sessions and webinars regarding outpatient claim errors.

NGS’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

We encourage NGS to implement system edits to the extent possible under its current contract
with CMS.




                                                  7
APPENDIX
                                                                                                                          Page 1 of2


APPENDIX: NATIONAL GOVERNMENT SERVICES, INC., COMMENTS




f '"
    ,\Iot;"'lII!
    ~1151(,,,,
                    .....-.
  ..L,..NatiDnaI covernm;rrt

                   Go"""'.......,Se,""'''' Inc. 

                   .. ~-'   

                                                                                                          Medicare
    ~od'->p>I;'.       Ind ....... 4II'3.J-19l6 

    A eMS G.., ........, A.sn" 




    November 4. 2011


    Mr. Stephen F. Siamar 

    Acting Regional Inspector General for Audit Sel"'ices                                     REVISED 

    Office of Inspector General 

    Office of Audit Services. Region V 

    233 North Michigan Avenue, Suite 1360 

    Chicago,IL 6060\ 


    Report Number: A.(lj·\O·OOO25

    Dear Mr. Slarnar,



    The follo ..... ing presents our response \0 the colnmen~~ made in your report dated July 6, 201 \:

    Res:QIDmeodaljpn ! -               R~Qyer       tbe 56 284 843 in jdenliticd ovc(Di!ymems 

    A review was performed on all outpatient claims detailed in Ihe audit. The required actions 

    have been completed. 


    Recomme ndation 2 _ Rj;!mnjn c 1M amouOl ofo,·emayrnent for the 26 income! Ijne iwm payrncnls
    and recover lhal amouOl
    All 26 claim adjustments will be initiated and the recovery process will begin when the claim adjustment
    finalizes.

    Recpmmendation) - Irn oh:mC;D1 sys tem esli ts thai identify !ille item Qilvmems tbm exceed b jllfd 

    chmes by jI prescribed :guo uO! 


    Upon further rev iew of thi s recommendation. the requested edits will require additional clarification and
    discussion. Due to syStem lim itations within the CMS Part A processing system. it is uncleor Itow "
    comparison may be made prior to moving through the Pricer. Fi nancial calcu lations are completed orlCe
    the claim is stored and ready to send to CW F.

    There is a possibility to suspend certain APC or DRG. however. a manual review of many claims would
    ha~"C to be completed. This type of ooit would create significant additional workload.

    [fparticular revenue codes or HCre codes were identified in this review. Nmiooal Government Services
    could set up an edit to suspend those meeting predctcnnined criteria for units and/or amount billed. TIli s
    effort would resul t in a smaller additional m3nUllI eITort to s~1 up, test. and move to production. Once in
    production. there would need to bI:: II. prescribt:d revie,",. either local or natio "" I, to maintain th is edit for any
    nceded updates.

    Further consideration is respectfu lly being requested with regards to this recommendation.



                                                                                                              c/I#sj
                                                                                                      ------,
                                                                                                           Page 2 of2




R(;'commrndmjQIl 4 - Usc the o.:5uhs of thjs audjt   in its nrovider   ('duplin"   aClivj!je~


Provider Outreach and Education lPOE) will research the issues idcmitied within the repon 31K11he reasons
staled by the JIlinois and Wisconsin providers as reasons ror the incorl'e("[ overpayments. rOE will prol' jde
ongoing education via the N3tional Government Services Web site and listsen' notices to th e Illinois and
Wisconsin providers regarding outpatient claim errol'S. POE will moni tor data for trends. utilization
pauerns, denials and provide web anicles and lis! serves where high denials hal'e been identified. POE will
conduct face 10 lace sessions and webinars providing edu'ation 19 Ihe minoi, HUrl Wisconsin providers
regarding outpatient serviccs. dates are yet to be dctennined. The education dire<.:\ed to Ih" Illinois and
Wisconsin providers will address dat3 entry errors which result in overpayments as well as underpayment"
along wilh clinical docum"nlatiOI! issues.


Sincerely}'ours,

lsi Sharon Wcddel

Sharon Weddel. 

Director NGS Operations 

